TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Indian Tribal Governments Office’s
                      Administration of the Tip Compliance
                         Program for Its Customer Base
                        Increased Voluntary Compliance



                                       September 8, 2006

                              Reference Number: 2006-10-131




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document..



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 8, 2006



 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Indian Tribal Governments Office’s
                               Administration of the Tip Compliance Program for Its Customer Base
                               Increased Voluntary Compliance (Audit # 200610027)

 This report presents the results of our review of the Indian Tribal Governments (ITG) Office’s
 administration of the Tip Rate Determination and Education Program (Tip Program) for its
 customer base. The overall objective of this review was to assess the adequacy of the ITG
 Office’s efforts to improve compliance in the reporting of tip income by employees and
 employers in the Gaming Industry.
 With almost $23 billion in revenue in 2005, the Indian-owned Gaming Industry generated more
 revenue than all commercial gaming operations in the State of Nevada combined and is the
 largest gaming segment in the United States. Tribal gaming has created approximately
 600,000 jobs nationwide and generated $6.1 billion in employer and employee Social Security
 taxes, personal and corporate income taxes, and excise taxes in Fiscal Year (FY) 2005.
 According to ITG Office management, tribal entities reported $315 million in tip income,
 compared to $863 million reported by Nevada gaming entities, in Tax Year 2003.1

 Impact on the Taxpayer
 Since taking over administration of the Tip Program for its customer base, the ITG Office has
 taken significant actions to improve compliance in the reporting of tip income by both employees
 and employers in the tribal Gaming Industry. ITG Office management has increased the number

 1
  Tip income is higher for Nevada because its operations rely heavily on entertainment and restaurant income.
 Nevada entities may include tribal entities doing business in Nevada.
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance


of tip rate agreements from 16 to 115 and the average amount of tip income reported quarterly
from approximately $68 million to $124 million. This shows the impact of a tip agreement on
additional revenue for the Federal Government and represents taxes that are reported and paid
voluntarily instead of through enforcement actions.

Synopsis
Historically, tip income has been underreported by employees. In FY 1993, the Internal
Revenue Service (IRS) developed the Tip Program to help tipped employees understand and
comply with the Internal Revenue Code (I.R.C.) and to make the tip compliance process more
efficient through the use of voluntary tip rate agreements. The agreements make it easier for
tipped employees to calculate and report their tips and to
pay their taxes. The benefit of entering into a tip
                                                                The ITG office has increased the
agreement is that, as long as employees and employers            number of tip rate agreements
comply with the agreements, the IRS will not perform             from 16 to 115 and the average
examinations of employees to determine if tip income was         amount of tip income reported
reported correctly or examinations of employers to                quarterly from approximately
determine if assessments are warranted.                            $68 million to $124 million.

Prior to the ITG Office becoming operational in FY 2001,
the IRS had entered into only 16 agreements with tribal entities for voluntarily reporting tip
income and had asserted some liabilities on tribal casinos under I.R.C. Section (§) 3121(q).2 In
FY 2001, the ITG Office identified tip reporting as a major compliance issue for tribal
governments because of the increase in tribal gaming revenue and because the IRS previously
had not had a coordinated effort to interact with tribal governments to ensure compliance with
the I.R.C.
Although the ITG Office has taken significant actions to improve voluntary compliance by tribal
employers and employees, some entities have declined tip rate agreements. We could not
determine the impact of the ITG Office’s actions to enforce compliance with I.R.C. §§ 3121(q)
and 3401(f)3 for those entities not voluntarily entering into tip agreements or entities not adhering
to the terms of signed agreements. Most enforcement actions started by the ITG Office were still
ongoing at the end of our fieldwork. Specifically, since the beginning of FY 2005, the ITG
Office had initiated tip examinations related to 13 tribal entities but had completed examinations




2
  I.R.C. § 3121(q) (2005) allows the IRS to assess the employer’s share of taxes with respect to unreported tips
under the Federal Insurance Contribution Act, I.R.C. §§ 3101-3128.
3
  I.R.C. § 3401(f) (2005) relates to tips received by employees in the definition of “wages” for purposes of
employment taxes.
                                                                                                                   2
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance


for only 3 tribal entities. In addition, the ITG Office has not revoked4 any of the tip agreements
entered into between the IRS and tribal gaming entities and has not assessed any liabilities under
I.R.C. § 3121(q), which was assigned to the ITG Office in June 2006 for tribal customers.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Acting
Assistant Inspector General for Audit (Headquarters Operations and Exempt Organizations
Programs), at (202) 622-8500.




4
  If it is determined that a tribe is not adhering to the terms required in its tip agreement, revocation of that
agreement should be considered. Because participation in the Tip Program is voluntary, revocation should be a last
resort.
                                                                                                                     3
                        The Indian Tribal Governments Office’s Administration of the
                               Tip Compliance Program for Its Customer Base
                                      Increased Voluntary Compliance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Indian Tribal Governments Office Has Increased Voluntary
          Tip Rate Agreement Participation Significantly and Is Expanding
          Actions to Enforce Tip Reporting Compliance ............................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
         The Indian Tribal Governments Office’s Administration of the
                Tip Compliance Program for Its Customer Base
                       Increased Voluntary Compliance




                       Abbreviations

FY                  Fiscal Year
GITCA               Gaming Industry Tip Compliance Agreement
I.R.C.              Internal Revenue Code
IRS                 Internal Revenue Service
ITG                 Indian Tribal Governments
TRDA                Tip Rate Determination Agreement
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance




                                            Background

The Indian Tribal Governments (ITG) Office was established as part of the Internal Revenue
Service’s (IRS) Tax Exempt and Government Entities Division in Fiscal Year (FY) 2001. The
ITG Office coordinates all Federal tax administration issues involving 564 Federally recognized
tribes. These tribes own or control approximately 2,100 business entities, including businesses
or enterprises responsible for properly reporting and paying employment taxes. Of these
approximately 2,100 entities, 318 are casinos employing workers such as card dealers and
restaurant staff that traditionally receive tip income.
Internal Revenue Code (I.R.C.) Sections (§) 3121(q) and
3401(f)1 require that employees report money received        Indian-owned casinos generated
                                                               almost $23 billion in gambling
as tip income to the IRS on their U.S. Individual Income      revenue for 2005, almost double
Tax Returns (Form 1040).                                         the commercial gambling
                                                                   revenue in Nevada.
With almost $23 billion in revenue in 2005, the
Indian-owned Gaming Industry generated more revenue
than all commercial gaming operations in the State of Nevada combined and is the largest
gaming segment in the United States. Tribal gaming has created approximately 600,000 jobs
nationwide and generated $6.1 billion in employer and employee Social Security taxes, personal
and corporate income taxes, and excise taxes in FY 2005. According to ITG Office
management, tribal entities reported $315 million in tip income, compared to $863 million
reported by Nevada gaming entities, in Tax Year 2003.2
Historically, tip income has been underreported by employees. Prior to FY 1993, to ensure
compliance with the I.R.C., the IRS performed resource-intensive examinations on the individual
returns of tipped employees. The examinations often resulted in significant tax assessments,
which created financial burdens on the employees and their employers.
In FY 1993, the IRS developed the Tip Rate Determination and Education Program (Tip
Program) to help tipped employees understand and comply with the I.R.C. and to make the tip
compliance process more efficient for the IRS. The Tip Program is coordinated by the IRS
Small Business/Self-Employed Division. It is intended to improve tax compliance through the
use of advance voluntary compliance agreements, which, for the Gaming Industry, include Tip
Rate Determination Agreements (TRDA) and Gaming Industry Tip Compliance Agreements
(GITCA).



1
 I.R.C. § 3121(q) (2005) and I.R.C. § 3401(f) (2005).
2
 Tip income is higher for Nevada because its operations rely heavily on entertainment and restaurant income.
Nevada entities may include tribal entities doing business in Nevada.
                                                                                                           Page 1
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance



The agreements make it easier for tipped employees to calculate and report their tips and to pay
their taxes. Voluntary tip agreements establish rates for each of the tipped occupational
categories in the gaming establishment; they are implemented by employers and approved by the
IRS. The benefit of entering into a tip agreement is that, as long as employees and employers
comply with the agreements, the IRS will not perform examinations of employees to determine if
tip income was reported correctly or examinations of employers to determine if assessments
under I.R.C § 3121(q)3 are warranted. This reduces the likelihood of employees receiving
assessments for underreporting tip income.
This review was performed at the ITG Office National Headquarters in Washington, D.C.,
and the Compliance and Program Management offices4 in Buffalo, New York, and
Lakewood, Colorado, during the period February through July 2006. The audit was conducted
in accordance with Government Auditing Standards. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
  I.R.C. § 3121(q) allows the IRS to assess the employer’s share of taxes with respect to unreported tips under the
Federal Insurance Contribution Act, I.R.C. §§ 3101-3128.
4
  The Compliance and Program Management Office was formerly referred to as the Outreach, Planning, and Review
Office.
                                                                                                           Page 2
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance




                                      Results of Review

The Indian Tribal Governments Office Has Increased Voluntary Tip
Rate Agreement Participation Significantly and Is Expanding Actions
to Enforce Tip Reporting Compliance
The ITG Office has taken significant actions to improve voluntary compliance in the reporting of
tip income by both employees and employers in the tribal Gaming Industry. After becoming
operational in FY 2001, the ITG Office identified tip reporting as a major compliance issue for
tribal governments because of the increase in tribal gaming revenue and because the IRS
previously had not had a coordinated effort to interact with tribal governments to ensure
compliance with the I.R.C.
Prior to FY 2001, the IRS had entered into only 16 agreements with tribal entities for voluntarily
reporting tip income and had asserted some liabilities on tribal casinos under I.R.C. § 3121(q).
Since then, ITG Office management has taken over administration of the IRS Tip Program for
the ITG Office customer base. ITG Office management has focused their efforts to improve tip
income compliance by employees and employers in the tribal Gaming Industry by ensuring their
customers understand their tax responsibilities and by providing the opportunity, through tip
agreements, to comply with the I.R.C.
As of June 2006, the ITG Office had entered into tip agreements with an additional 99 entities
and had refreshed5 or was reviewing 31 of the total 115 agreements that either had aged or were
about to expire. Figure 1 shows the tip agreements entered into by fiscal year.




5
  Refreshed is a term used to indicate the tip agreement may be outdated and needs a follow-up review to determine
if the tip rates outlined in the agreement are appropriate.


                                                                                                           Page 3
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance



              Figure 1: Total Tip Agreements by Fiscal Year (FYs 2000 – 2006)

          Voluntary            Prior 2001          2002      2003 2004           2005      2006      Total
          Agreements            to
                               2001

        TRDA/GITCA6              16        4         15       18          38       20         4        115
                                                                      7
      Source: Analysis of information from the ITG Office Database and information from the ITG Office Tip
      Compliance Coordinator.

In addition, analysis of the ITG Database, cumulative through September 30, 2005, showed
employees of tribes either begin reporting tip income or show a significant increase in the
amount of income reported as tips after tribes enter into tip agreements with the ITG Office.
Based on a review of 1058 of the 115 tribal entities under a tip agreement, we determined tip
income reported increased from an average of approximately $68 million per quarter before the
tip agreements to an average of approximately $124 million per quarter after the tip agreements.
Additional analysis showed 53 (50 percent) of the 105 entities did not report any tip income on
their employment tax returns until after the tip agreements became effective. After the tip
agreements were signed, average total quarterly tip income reported for the 53 entities increased
from $0.00 to approximately $31 million. The average quarterly increase amount of tip income
for the 53 entities was approximately $586,000, and the median increase amount was
approximately $267,000. This shows the impact of a tip agreement on additional revenue for the
Federal Government and represents taxes that are reported and paid voluntarily instead of
through enforcement actions.
Although the ITG Office has taken significant actions to improve compliance in the reporting of
tip income by both employees and employers, some entities have declined tip rate agreements.
We could not determine the impact of the ITG Office’s actions to enforce compliance with
I.R.C. §§ 3121(q) and 3401(f) for those entities not voluntarily entering into tip agreements or
entities not adhering to the terms of signed agreements. Most enforcement actions started by the
ITG Office were still ongoing at the end of our fieldwork. Specifically, since the beginning of
FY 2005, the ITG Office had initiated tip examinations related to 13 tribal entities but had


6
  Revenue Procedure 2003-35, effective May 1, 2003, introduced the GITCA.
7
  The ITG Office Database was developed over the past several years and contains data from the IRS’ main database
(Master File), the Bureau of Indian Affairs, and other sources on Indian Tribal governments and their related
entities. The ITG Office Database records contain more than 200 data fields and include information such as tribal
entity data, filing requirements, and line-item information from filed returns such as wages paid. The Master File is
the IRS database that stores various types of taxpayer account information, including individual, business, and
employee plans and exempt organizations data.
8
  Tip information was not reviewed for 4 of 115 entities containing invalid information and 6 of 115 entities that had
only recently entered into tip agreements.
                                                                                                              Page 4
                    The Indian Tribal Governments Office’s Administration of the
                           Tip Compliance Program for Its Customer Base
                                  Increased Voluntary Compliance



completed examinations for only 3 tribal entities. In addition, the ITG Office has not revoked9
any of the tip agreements entered into between the IRS and tribal gaming entities and has not
assessed any liabilities under I.R.C. § 3121(q), which was assigned to the ITG Office in
June 2006 for tribal customers.

The ITG Office administered the Tip Program to improve compliance
ITG Office management administered their Tip Program to be consistent with the IRS National
Tip Program and to take into consideration the needs of the ITG Office customer base. The Tip
Program offers tribal gaming employers the same voluntary tip agreements offered to
commercial gaming employers and provides tribal gaming employers the opportunity to report
tip income properly by establishing minimum tip rates for tipped employees in specific
occupational categories.10 ITG Office management took the following actions to improve the Tip
Program11 and to improve compliance with I.R.C. §§ 3121(q) and 3401(f) for their customer
base.
The ITG Office developed educational materials and made presentations to its customers
The ITG Office developed educational material and made 82 presentations to tribal officials in
FYs 2001 through 2005. These presentations included information such as the benefits of
participating in the Tip Program and legal responsibilities of employers (tribes) and employees.
ITG Office management also communicated educational material through ITG Office
newsletters distributed quarterly to tribes nationwide, on the ITG Office Internet web site, and
when meeting with tribal officials to discuss other compliance issues.
The ITG Office developed a process to monitor tip agreements
The ITG Office created the Tip Coordinator position in FY 2005 with the responsibility for
monitoring tip agreements and for ensuring the tribes and their employees comply with the terms
of the agreements. Prior to establishment of the Tip Coordinator position, the ITG Office Tip
Program was limited to securing new TRDAs and GITCAs with tribal gaming entities that did
not have agreements with the ITG Office. The ITG Database is also used to monitor tip
agreements and to identify aged agreements that should be assigned to ITG Office field
specialists for refreshing. During FY 2006, the ITG Office Tip Coordinator identified and
forwarded 22 TRDAs and 10 GITCAs to field specialists for refreshing.


9
  If it is determined that a tribe is not adhering to the terms required in its tip agreement, revocation of that
agreement should be considered. Because participation in the Tip Program is voluntary, revocation should be a last
resort.
10
   For the purposes of the TRDA or GITCA, a tipped employee is defined as an employee who regularly or routinely
receives tip income, of at least $20 a month, during the course of the employee’s employment.
11
   The National Tip Program was set to expire in 2005; however, in September 2004, the Program was extended
without an expiration date. With the indefinite extension of the National Tip Program, the IRS can now administer
existing tip agreements without the need for employers to re-sign the agreements.
                                                                                                          Page 5
                      The Indian Tribal Governments Office’s Administration of the
                             Tip Compliance Program for Its Customer Base
                                    Increased Voluntary Compliance



The ITG Office has taken actions to increase the number of tip agreements with
tribes
Based on interviews with ITG Office management and review of the ITG Database, we
determined the ITG Office has taken actions to increase the number of tribal entities participating
in tip agreements. We analyzed the ITG Database and identified 318 Class II and/or Class III
gaming12 entities (Class II and Class III gaming entities are the most likely to have tipped
employees) and determined that, from October 1, 2001, through February 7, 2006, the ITG
Office initiated compliance checks13 and tip rate solicitations14 to increase tip rate agreements
with tribal entities.
Assignment of compliance checks
Based on our analysis of the 318 entities with Class II and/or III gaming, from October 1, 2001,
through January 12, 2006, the ITG Office classifier assigned 134 compliance checks to ITG
Office field specialists. The purpose of the compliance checks was to review the tribes’
reporting requirements, including employment tax issues, and identify remedies to improve
compliance, such as tip agreements for tribes that may not be reporting tip income properly.
During a compliance check, if it is determined that employment tax compliance should improve
if a tip agreement is entered into, the ITG Office will schedule a tip solicitation visit with the
tribe to begin the process of negotiating the tip agreement. For the 134 compliance checks
assigned, 50 tip solicitations were also assigned prior to, subsequent to, or concurrently with the
compliance checks.
Assignment of tip rate solicitations
Based on our analysis of the 318 entities with Class II and/or III gaming, from May 1, 2002,
through February 7, 2006, the ITG Office classifier assigned 189 tip rate solicitations15 to the
ITG Office field specialists. The 189 tip rate solicitations included the 50 solicitations related to
the compliance checks discussed above. However, the need for tip rate solicitations can be based
on information other than that learned in compliance checks, such as the ITG Office field


12
   There are three classes of gaming. Class I gaming consists of social games for prizes of nominal value. Class II
gaming consists of games such as bingo and lotto. Class III gaming consists of card games, dog and horse racing,
and all other types of casino gaming.
13
   During a compliance check, the ITG Office field specialist interviews key personnel in the tribal entity and
inquires about other related entities and filing requirements to determine whether all record keeping and information
reporting requirements are being met. Unlike an examination or audit, a compliance check does not seek to
determine a tax liability for any particular period; it is voluntary, and the tribe may refuse to participate in a
compliance check.
14
   During a tip rate solicitation, the ITG Office field specialist meets with tribal officials to discuss tipped employee
positions and to propose a tip agreement that defines specific tip income rates and/or methodologies for reporting tip
income for tribal employees.
15
   There were a total of 189 tip rate solicitations assigned for 160 entities; some of the 160 entities had multiple tip
rate solicitations assigned.
                                                                                                                 Page 6
                  The Indian Tribal Governments Office’s Administration of the
                         Tip Compliance Program for Its Customer Base
                                Increased Voluntary Compliance



specialist’s knowledge of the tribe or a request for a tip solicitation by tribal officials. Based
upon review of the 133 tip solicitations that had been closed by the end of our fieldwork, we
determined 62 (47 percent) had resulted in tip agreements. The remaining 71 tip rate
solicitations were closed as follows:
•   For 3 (2 percent) of 133 solicitations, tip rate agreements were refreshed.
•   For 40 (30 percent) of 133 solicitations, the tribes declined proposed tip agreements; 12 of
    these entities were assigned later for tip examinations.
•   For 7 (5 percent) of 133 solicitations, closure actions were inconclusive. For example, a
    solicitation may have been closed on the ITG Database, but ITG Office management may not
    have been notified by the tribe regarding whether the tribe would accept the tip agreement.
•   For 21 (16 percent) of 133 solicitations, the solicitations were surveyed (closed prior to
    contacting the customer) either by the classifier, ITG Office management, or the field
    specialist.
Tribal gaming has experienced nearly double-digit growth in revenue every year since 1988.
The National Indian Gaming Association anticipates that tribal gaming growth will slow in the
future, but, when compared to the yearly double-digit growth since 1988, future growth will be
sustainable and focus on expanding current facilities. ITG Office management took significant
actions to help tribal employers and employees improve compliance with tip reporting
requirements. The number of tip rate agreements increased from 16 to 115, and the average
amount of tip income reported quarterly increased from approximately $68 million to
$124 million. However, with 318 tribal entities offering Class II or Class III gaming, the ITG
Office still has opportunities for continued improvements by helping tribal employers and
employees comply with the I.R.C. §§ 3121(q) and 3401(f) requirements for reporting money
received as tip income to the IRS.




                                                                                               Page 7
                 The Indian Tribal Governments Office’s Administration of the
                        Tip Compliance Program for Its Customer Base
                               Increased Voluntary Compliance



                                                                                    Appendix I


        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the adequacy of the ITG Office’s efforts to improve
compliance in the reporting of tip income by employees and employers in the Gaming Industry.
To accomplish our objective, we:

I.     Determined if the ITG Office’s Tip Rate Determination and Education Program (Tip
       Program) was administered effectively to identify and obtain new tip rate agreements or
       to update prior tip rate agreements where needed.

       A. Interviewed ITG Office management and obtained Tip Program objectives, respective
          policy guidance, an overview on how the Program operated, and any plans for future
          efforts in the tip compliance area.

       B. Determined how the Tip Program was communicated to tribal entities via the ITG
          Office’s Customer Education and Outreach and other initiatives.

       C. Determined if ITG Office employees received Tip Program training.

       D. Determined the extent of ITG Office management’s coordination with other IRS
          operating divisions in the implementation and execution of the Tip Program.

       E. Determined how tip rate agreements received from tribal gaming entities were
          controlled and monitored to identify if the tip rates had become outdated.

       F. Determined if the ITG Office had established a process for identifying and pursuing
          tip rate agreements for tribal entities that had not entered into an agreement and/or for
          tribal entities that had outdated agreements.

       G. Determined, from ITG Office management, the number of tribal entities in which
          significant tipping was known to occur that did not have tip rate agreements.

       H. Determined the number of instances in which ITG Office employees held Customer
          Education and Outreach presentations and/or workshops about the Tip Program and if
          the presentations resulted in securing tip agreements.

                                                                                            Page 8
                     The Indian Tribal Governments Office’s Administration of the
                            Tip Compliance Program for Its Customer Base
                                   Increased Voluntary Compliance



II.     Performed analysis of the ITG Database1 to determine the impact of ITG Office
        management’s actions on improving compliance with tip reporting requirements.
        A. Determined the ITG Database information used for analysis was valid by relying on
           previous Treasury Inspector General for Tax Administration audit work2 that used
           and established the validity of the data. We determined the IRS Master File
           information was valid by relying on the Treasury Inspector General for Tax
           Administration Information Systems Programs Electronic Data Processing Audit
           Support group’s documentation ensuring the data extracted from the Business Master
           File were an exact replica and the character of the data were not changed.
        B. Analyzed tip rate agreement information in the ITG Database, cumulative through
           September 30, 2005.
        C. Analyzed the ITG Database and related Master File data and evaluated the effect of
           tip rate agreements on tip income (i.e., Federal Insurance Contribution Act3 tax
           assessments, penalties, no change).
        D. Analyzed the ITG Database and evaluated the effect of compliance checks on tip rate
           agreements.




1
  The ITG Office Database was developed over the past several years and contains data from the IRS’ main database
(Master File), the Bureau of Indian Affairs, and other sources on Indian Tribal governments and their related
enterprises. The ITG Office Database records contain more than 200 data fields and include information such as
tribal entity data, filing requirements, and line-item information from filed returns such as wages paid. The Master
File is the IRS database that stores various types of taxpayer account information, including individual, business,
and employee plans and exempt organizations data.
2
  The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian Tribal
Governments Most in Need of Compliance Checks (Reference Number 2004-10-191, dated September 2004) and
The Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and Efficiency of Compliance
Checks (Reference Number 2005-10-158, dated September 2005).
3
  The Federal Insurance Contribution Act, I.R.C. §§ 3101-3128.
                                                                                                            Page 9
                The Indian Tribal Governments Office’s Administration of the
                       Tip Compliance Program for Its Customer Base
                              Increased Voluntary Compliance



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
Gerald T. Hawkins, Audit Manager
Allen L. Brooks, Lead Auditor
Julia M. Collins, Senior Auditor
Yolanda D. Brown, Auditor
Donald J. Martineau, Auditor




                                                                                    Page 10
                The Indian Tribal Governments Office’s Administration of the
                       Tip Compliance Program for Its Customer Base
                              Increased Voluntary Compliance



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 11
